          INDEPENDENT EVALUATION PURSUANT TO THE
        GOVERNMENT INFORMATION SECURITY REFORM ACT
                     FISCAL YEAR 2001

               SENSITIVE BUT UNCLASSIFIED SYSTEMS

                 OFFICE OF THE INSPECTOR GENERAL
                        EXECUTIVE SUMMARY

      The Government Information Security Reform Act (GISRA) required
the Office of the Inspector General (OIG) to perform an independent
evaluation of the U.S. Department of Justice’s (Department’s) information
security program and practices. This report summarizes the results of the
evaluation for the Department’s sensitive but unclassified (SBU) systems for
FY 2001. Separate reports were issued for each of the individual systems
evaluated. The OIG is also issuing a report summarizing the results of the
Department’s classified systems.

      The OIG took an ambitious approach to fulfill the GISRA requirement by
performing individual audits on a subset of Department systems. The OIG, in
conjunction with Department management, selected four classified and five
SBU systems to audit from the universe of Department systems for fiscal year
2001. Systems selected were mission critical and representative of differing
system configurations (both client/server and mainframe) and operating
systems (UNIX, Novell, Windows NT, and OS/390).

      Under the direction of the OIG and in accordance with Government
Auditing Standards, PricewaterhouseCoopers LLP conducted the assessment
of the Department’s overall computer security program and practices for the
SBU systems by performing individual audits of five systems maintained by
the Federal Bureau of Prisons (BOP), Drug Enforcement Administration
(DEA), Executive Office for U.S. Attorneys (EOUSA), and Justice
Management Division (JMD).

                    SBU Systems Selected for Audit

    Component                            System
    BOP           BOP Network (BOPNet)
    DEA           El Paso Intelligence Center Information System (EIS)
    DEA           Firebird
    EOUSA         Justice Consolidated Office Network II (JCONII)
    JMD           Rockville and Dallas Data Centers (JDC)


                                    -i-
       The audits consisted of interviews, on-site observations, and reviews
of Department and component documentation to assess the system and
component compliance with GISRA and related information security policies,
procedures, standards, and guidelines. Commercial-off-the-shelf and
proprietary software were used to conduct security tests and analyses of
significant operating system integrity and security concerns.

       The audits of the SBU systems revealed vulnerabilities with
management (M), operational (O), and technical (T) controls. The auditors
assessed these vulnerabilities at a high to low risk to the protection of each
system and the data stored on it from unauthorized use, loss, or
modification. Specifically, vulnerabilities were noted in the following areas:

                       Audit Results of SBU Systems

                                  Control
     Areas of Vulnerability        Type BOPNet EIS Firebird JCONII JDC
Security Policies and Procedures    M     3     3     3       3     3
Authorization of Software Changes   M                               3
Risk Assessment Reporting           M     3     3     3
Contingency Planning                O           3     3             3
System Backup Procedures            O                 3       3
System Configuration                O           3     3       3
Password Management                  T    3     3     3       3     3
Logon Management                     T    3     3     3       3     3
Account Integrity Management         T          3     3       3     3
System Auditing Management           T          3     3       3     3

      Overall, the GISRA audits found that Department-level and component
security policies and procedures were either insufficient or unenforced. The
auditors concluded the Department did not provide timely and effective
oversight to ensure implementation of its security policies. For example, the
Department took nearly four years to revise its overall security policy, DOJ
Order 2640.2D “Information Technology Security,” after reporting it as
ineffective in September 1997. In several areas of identified vulnerabilities,
broadly stated or minimally imposed standards allowed system security
managers too much latitude in establishing system settings, and
consequently systems were not fully secured.




                                      - ii -
       To address these deficiencies, we recommend granting responsibility
to a single point of contact in the office of the Assistant Attorney General for
Administration to oversee, standardize, implement, and maintain strict
baseline Department-wide security controls over both SBU and classified
systems. This contact also would serve as a liaison between the Information
Management and Security Staff, the Security and Emergency Planning Staff,
and the Assistant Attorney General for Administration. Among our
recommendations are:
   •   enforce Department security policies at each component such as
       passwords, account lockout, and system auditing management;
   •   ensure that all components have current, documented, and tested
       contingency plans;
   •   develop a comprehensive corrective action plan to address weaknesses
       previously identified;
   •   ensure periodic computer security training is provided for each
       platform supported;
   •   ensure systems' security is monitored sufficiently, efficiently, and
       consistently, including:
       a) automated monitoring of security policy compliance and auditing of
          security relevant events;
       b) requiring intrusion detection testing and application and operating
          system patches be kept current.
   •   ensure that periodic updates supplement DOJ Order 2640.2D based on
       observed component needs, the evolving computer security
       environment, and industry best practices.




                                      - iii -
                                  TABLE OF CONTENTS
                                                                                             Page

INTRODUCTION .................................................................................. 1

FINDINGS ......................................................................................... 3

I.     MANAGEMENT CONTROLS ............................................................ 3
           Security Policies and Procedures ........................................... 4
           Authorization of Software Changes........................................ 5
           Risk Assessment Reporting .................................................. 5

II.    OPERATIONAL CONTROLS ............................................................ 6
           Contingency Planning .......................................................... 6
           System Backup Procedures .................................................. 6
           System Configuration .......................................................... 7

III.   TECHNICAL CONTROLS................................................................ 8
           Password Management ........................................................ 8
           Logon Management............................................................. 9
           Account Integrity Management ........................................... 10
           System Auditing Management ............................................ 10

CONCLUSION ................................................................................... 11

APPENDIX I       - BACKGROUND ............................................................. 14

APPENDIX II - OBJECTIVE, SCOPE, AND METHODOLOGY ....................... 17

APPENDIX III - RECOMMENDATIONS ................................................... 18

APPENDIX IV - VIEWS OF RESPONSIBLE OFFICIALS
              AND STATUS OF REPORT .............................................. 21
                                               INTRODUCTION

      The fiscal year 2001 Defense Authorization Act (Public Law 106-398)
includes Title X, subtitle G, “Government Information Security Reform Act”
(GISRA). GISRA became effective on November 29, 2000, and amends the
Paperwork Reduction Act of 1995 by enacting a new subchapter on
"Information Security." It requires federal agencies to:
      •    Have an annual independent evaluation of their information security
           program and practices performed.
      •    Ensure information security policy is founded on a continuous risk
           management cycle.
      •    Implement controls that assess information security risks.
      •    Promote continuing awareness of information security risks.
      •    Continually monitor and evaluate information security policy.
      •    Control effectiveness of information security practices.
      •    Provide a risk assessment and report on the security needs of the
           agencies’ systems, and include the report in their budget request to
           the Office of Management and Budget (OMB).

         In June 2001, the OMB issued “Reporting Instructions for the
Government Information Security Reform Act,” requiring the submission of
an executive summary and a section characterizing the results of the OIG
independent evaluation, by September 10, 2001.1 The OIG coordinated
GISRA work with the Department to promote communication and avoid
duplication as the Department concurrently conducted program reviews to
fulfill its GISRA obligations. The OIG also held briefings to keep Department
and component management apprised of the audit results.

      The OIG contracted with PricewaterhouseCoopers LLP to conduct the
assessment of the overall computer security program and practices for the
Department’s sensitive but unclassified (SBU) systems. The objective was
to determine the Department’s compliance with the requirements of GISRA.
To accomplish this objective, individual audits were performed on five SBU
systems chosen by the OIG in consultation with Department management:
the Drug Enforcement Administration’s Firebird and El Paso Intelligence
Center Information System, the Federal Bureau of Prisons Network, the
Executive Office for U.S. Attorneys’ Justice Consolidated Office Network II,
and the Justice Management Division’s Rockville and Dallas Data Centers.




1
    The OIG began the GISRA audits in April 2001, prior to the availability of OMB’s GISRA reporting instructions.
    Therefore, our audits did not specifically address, and we do not report on, all of the instruction’s 13 requested
    questions. However, we expect to include all 13 questions in the scope of our 2002 GISRA reviews.

                                                          -1-
      The auditors reviewed management, operational, and technical
controls by interviewing component management personnel, reviewing
system documentation, and performing testing. The audits were performed
in accordance with Government Auditing Standards and were conducted
between April and August 2001. The audit approach was based on the
General Accounting Office’s Federal Information System Control Audit
Manual, the Chief Information Officer Council Framework, and guidance
established by the National Institute of Standards and Technology.

      The OIG has routinely performed computer information security audits
within Department components. Since 1996, the OIG also reviewed
computer security program requirements annually as part of the financial
statement audit process. For the GISRA audits, special emphasis was placed
on reviewing vulnerabilities previously identified and verifying that
appropriate corrective measures were implemented.

       The GISRA audits of SBU systems revealed vulnerabilities with
management, operational, and technical controls. The auditors assessed
these vulnerabilities at a high to low risk to the protection of each system
from unauthorized use, loss, or modification. Vulnerability assessments2
were used to assess operational and technical controls of the SBU systems
and identified serious deficiencies including weak password controls,
inappropriate user privileges, improper intruder detection settings, and
ineffective system auditing. Since technical controls prevent unauthorized
access to system resources by restricting, controlling, and monitoring system
access, we concluded that these vulnerabilities were the most significant.

      The Department’s Justice Management Division Information
Management and Security Staff (IMSS) is responsible for providing guidance
on security issues related to the Department’s SBU systems. This includes
monitoring components’ compliance with the provisions of the Department’s
security policy and applicable Federal statutes, policies, and regulations as
they apply to SBU computer systems. The IMSS has conducted network
security penetration testing of SBU systems at Department components for
the past four years.

      A summary of the individual audit results previously reported is
detailed in the Findings section of this report. Appendices I and II provide
background on the systems selected and the objective, scope, and
methodology for the audit.


2
    A vulnerability assessment is a security test in which evaluators analyze system settings and security features,
    based upon their understanding of the system design and implementation. A determination is then made as to
    whether the system is optimally configured and appropriate security controls are in place. Unlike penetration
    testing, vulnerability tests do not attempt to circumvent the security features of a system and gain entry.

                                                        -2-
                                       FINDINGS

      The Department’s computer security program needs
      improvement to fully protect its SBU systems from unauthorized
      use, loss, or modification. Audits of five SBU systems disclosed
      vulnerabilities in management, operational, and technical
      controls as shown in the table below. Department-level and
      component security policies and procedures were insufficient or
      unenforced. The Department did not adequately: (1) identify
      and assess risks to determine needed security measures; (2)
      establish and implement policies and controls to meet those
      needs; (3) promote awareness so that users understand the
      risks and the related policies and controls required to mitigate
      them; or (4) monitor and evaluate established policies and
      controls to ensure that they were both appropriate and effective.

           Control Type              BOPNet   EIS    Firebird     JCONII    JDC
    MANAGEMENT CONTROLS                3       3        3           3        3
    OPERATIONAL CONTROLS                       3        3           3        3
    TECHNICAL CONTROLS                 3       3        3           3        3

I. MANAGEMENT CONTROLS

      Management controls are techniques and concerns normally addressed
by officials with responsibility for an organization's computer security
program. In general, these controls manage the computer security program
and the risk within the organization.

       Security policies, procedures, standards, and guidelines are the primary
means by which management communicates goals and requirements. To be
effective, compliance must be overseen and enforced. The related policies
should encompass all major systems and facilities. The policies should outline
the duties of those who are responsible for overseeing security as well as the
responsibility of those who own, use, or rely on the entity’s computer resources.

      The Department did not provide timely and effective oversight of SBU
systems by informing users of the risks and the controls required to mitigate
them or enforcing its own policies. Specifically, the audits disclosed
vulnerabilities in the following areas:

     Areas of Vulnerability          BOPNet   EPIC     Firebird    JCONII     JDC
 Security Policies and Procedures      3       3          3          3         3
 Authorization of Software Changes                                             3
 Risk Assessment Reporting              3       3         3

                                        -3-
Security Policies and Procedures

       The Department established uniform policy, DOJ Order 2640.2C,
“Telecommunications and Information System Security,” dated
June 25, 1993, for the protection of its automated information systems.
Despite the rapid evolution of computer technology, this policy remained in
effect and unchanged, governing the Department’s information systems
security environment for eight years. In a September 1997 audit, Report
No. 97-26, “Computer Security at the Department of Justice,” the OIG noted
the Order’s shortcomings and recommended that the Department develop
effective computer security program guidance. However, the Department
did not revise its policy, DOJ Order 2640.2D, “Information Technology
Security,” until four years later, in July 2001.

      Although DOJ Order 2640.2D addresses many areas of identified
system security vulnerabilities, the guidance remains insufficient for the
protection of Department information systems. The Order imposes minimal
standards that are broadly stated, allowing components and system security
managers too much latitude in establishing system settings. To ensure
uniform system security, DOJ Order 2640.2D needs more details in the
following areas:
  •   backup procedures;
  •   access controls;
  •   assignment of user rights and advanced user rights;
  •   password management (including task versus user accounts);
  •   service accounts - changing the default password;
  •   logon management;
  •   renaming guest and administrative accounts;
  •   account integrity management, including monitoring of account
      disposition (dormant accounts); and
  •   accountability and audit trails.

      Department-level guidance regarding the adequate, efficient, and
consistent monitoring of SBU systems' security is also lacking. Specific
areas that need addressing immediately are:
  •   automating the monitoring of security policy compliance;
  •   requiring timely software patch application;
  •   requiring intrusion detection testing; and


                                         -4-
      •   automating the logging, auditing, review and notification of security
          relevant events.

      Components are responsible for supplementing Department policy with
more detailed written security policies, procedures, standards, and
guidelines. Component and system level policies were also found to be
inconsistently applied and ineffective. For all five systems audited, we found
vulnerabilities attributed to inadequate security policies and ineffective
enforcement. In addition, the OIG previously reported system security
vulnerabilities attributable to unenforced and insufficient security policies on
two systems that were not corrected.

Authorization of Software Changes

      System software change management process provides for proper
documentation and authorization of software changes, acceptance testing,
management review and approval of changes and acceptance test results,
and a controlled procedure for introducing tested and approved changes into
production.

          For the five systems reviewed, we found:
      •   One system’s software change management process did not document
          approvals or installation and back-out plans.3

Risk Assessment Reporting

      A risk is the possibility that a threat adversely impacts an information
system by taking advantage of vulnerabilities. Thus, a risk assessment is a
formal description and estimate of risk to an information system. After risks
are identified, management should apply countermeasures relative to the
severity of the threat and priority of asset protection.

          For the five systems reviewed, we found:
      •   Two systems had vulnerabilities identified through risk assessments
          that were not corrected because appropriate management personnel
          never received the report or addressed its results.
      •   One system’s risk assessment was outdated and did not reflect
          subsequent changes to the operating environment. As a result,
          management was unaware of potential system security exposures.



3
    Back-out plans are operator instructions for rolling-back new changes at implementation due to operational
    problems and restoring the previous software versions.

                                                       -5-
II. OPERATIONAL CONTROLS

       Operational controls address security controls that are implemented
and executed by people to improve the security of a particular system, often
require technical or specialized expertise, and rely upon management
activities as well as technical controls.

      The auditors assessed the effectiveness of operational and technical
controls by using commercial-off-the-shelf and proprietary software to
conduct vulnerability assessments of the systems. A vulnerability
assessment is a security test in which evaluators analyze system settings
and security features based upon their understanding of the system design
and implementation. A determination is then made as to whether the
system is optimally configured and appropriate security controls are in place.
Unlike penetration testing, vulnerability assessments do not attempt to
circumvent the security features of a system and gain entry.

       The audits identified vulnerabilities in the following areas:

          Area of Vulnerability   BOPNet EIS Firebird JCONII JDC
         Contingency Planning             3     3             3
         System Backup Procedures               3       3
         System Configuration             3     3       3

Contingency Planning

      Effective contingency planning ensures continued operations by
minimizing the risk of events that disrupt normal operations and by having
an approach in place to respond to those events if they occur. Department
policy requires that contingency plans be reviewed and approved by
management.

      Three of the five systems tested had one or more of the following
vulnerabilities:
   •   Restoration priorities were not identified and an interagency
       agreement did not exist for the alternative processing site.
   •   Contingency plans were not properly reviewed or approved.
   •   Contingency plans were not tested.
   •   Contingency plan training was not conducted.
   •   The OIG previously reported a contingency planning vulnerability on
       one system that was not corrected.


                                       -6-
System Backup Procedures

       Backup procedures, including backup tapes, protect information
resources, minimize the risk of unplanned interruptions, allow for recovery of
critical operations when interruptions occur, and ensure on-going availability
of critical system operations.

       Industry best practices dictate that a backup storage location be
off-site and far enough away from the primary location to avoid being
impaired by the same events, such as fires, storms, and electrical power
outages. Storing backup data tapes in the same location as the primary
data risks completely losing all data in the event of a disaster.

       For two of the five systems tested, we found:
   •   Backup tapes were not stored off-site, rendering backup data
       vulnerable in the event of a disaster at the primary location.

System Configuration

      System configuration is the process of managing security features and
assurances by regulating and monitoring changes made to hardware,
software, firmware, and documentation throughout the lifecycle of an
information system.

      The Department’s security policy requires that computer systems
operate so that users have access to the information they need but no more
and requires each computer system to have features or procedures to
enforce access control measures required for the information in the system.
Vulnerabilities with system configuration increase the risk that unauthorized
users view, delete, or modify critical files, database intelligence data, or
directory contents.

    For three of the five systems audited, we found one or more of the
following vulnerabilities:
   •   Network administrators were assigned inappropriate file permissions
       and user rights.
   •   Network File System (NFS) directories were mounted with
       inappropriate parameters, exported to users with read/write privileges,
       and exported to domains without fully qualified domain names.
   •   Highly vulnerable services were running on the networks.
   •   The latest manufacturer’s patches were not installed.


                                     -7-
   •   Versions of operating system software that are no longer supported by
       the vendor were used.
   •   Supporting software versions differed between development, test, and
       production environments.

      The operational control vulnerabilities occurred due to a lack of
Department and component guidance establishing and requiring appropriate
system security standards and settings. Components did not adequately
implement existing Department guidance, increasing the risk of
unauthorized users obtaining access to system resources and exposing
sensitive information to unauthorized use, loss, or modification.

III. TECHNICAL CONTROLS

       Technical controls focus on the security controls that the computer
system executes. Technical controls require significant operational
considerations, should be consistent with the organization’s security
management, and depend upon the proper functioning of the system to be
effective. Technical controls prevent unauthorized access to system resources
by restricting, controlling, and monitoring system access and detecting and
recording security related events.

      The audits identified vulnerabilities with technical controls in the
following areas:

       Area of Vulnerability     BOPNet     EIS    Firebird    JCONII        JDC
  Password Management              3         3        3          3            3
  Logon Management                 3         3        3          3            3
  Account Integrity Management               3         3          3          3
  System Auditing Management                 3         3          3          3


Password Management

      A password is a unique string of characters that must be provided
before a logon or access is authorized to a computer system. Passwords are
security measures used to restrict logons to user accounts and access to
computer systems and resources. Strong password controls protect system
resources from unauthorized use, loss, or modification.

    All five systems tested had one or more of the following password
management vulnerabilities:
   •   All five systems had inappropriate password recycle intervals,
       permitting users to re-use passwords too quickly.
                                      -8-
   •   Four systems did not implement a “filter” enforcing password
       complexity rules.
   •   Four systems permitted users to have the same password for more
       than 90 days.
   •   Three systems either permitted blank or easily guessed passwords,
       such as a password equal to the user name.
   •   Three systems permitted user accounts with passwords less than eight
       characters.
   •   One system distributed user accounts using the Network Information
       System (NIS), exposing encrypted passwords to any user with the NIS
       password map.

Logon Management

       The first line of defense against unauthorized access is an interactive
logon process. The process normally begins with a warning banner,
informing the user of the proper use of computers on the network. Next,
the user is presented with a request for the user’s information such as the
username, password, and the server or domain the user intends to access.
If the user’s information is entered incorrectly, the system returns a logon
failure message and, after a predetermined number of failed attempts, locks
out the user for a specified period of time. If the user’s information is
entered correctly, the system authenticates the user, matching the user’s
information with an account in the system’s security accounts database.

    All five systems tested had one or more of the following logon
management vulnerabilities:
   •   All five systems had inappropriate user or global systems settings,
       including the ability to make more than one simultaneous network
       connection; incorrect or disabled account login/lockout parameters;
       excessive grace logins; inappropriate screensaver settings; and
       settings that allow unauthenticated access and idle sessions.
   •   Four systems did not display a warning banner that informed users of
       the consequences of unauthorized access.
   •   Three systems did not follow their respective account naming
       conventions, impeding individual accountability for user activities.
   •   Three systems maintained inactive accounts, including accounts
       associated with terminated employees, accounts never used, or
       accounts without activity within the past ninety days.



                                      -9-
   •   One system did not have the intruder detection option enabled,
       increasing the risk that unauthorized access would go undetected
   •   One system did not change vendor-supplied passwords upon software
       installation.

Account Integrity Management

       Account integrity management controls the permissions for logging on
to a computer or network. Proper expertise within a particular functional
entity and clearly defined job duties and responsibilities are essential in
maintaining a system. Monitoring resource access violations allows an entity
to predefine a threshold for flagging violations. A privilege enables a user to
perform a security relevant operation or a command that, by default, is
normally denied to that user. Privileges must be tightly controlled and users
clearly identified on the system in order to track their use of system
resources.

     Four of the five systems reviewed had one or more of the following
account integrity management vulnerabilities:
   •   Four systems granted users inappropriate rights inconsistent with their
       duties.
   •   Three systems had inappropriate access to unrestricted shell accounts,
       allowing users access to unauthorized commands, data, and
       configuration files.
   •   Two systems allowed users to break out of their startup scripts giving
       users access to the command prompt.
   •   One system had systems programmers without appropriate training or
       oversight perform security administration duties.
   •   One system’s security software global options were set inappropriately
       and generic logons were used to update critical systems software
       datasets without an independent technical review.
   •   One system had a root account trusting multiple servers through use of
       an “.rhosts” file that included one non-existent machine.
   •   One system did not use the Oracle product profile table and associated
       Oracle configuration utilities to implement appropriate security controls,
       allowing users to directly access and modify Oracle tables by
       circumventing application controls.




                                     - 10 -
System Auditing Management

      Auditing can provide the ability to detect and record security-related
events. It tracks the activities of users by recording information about
specific types of events, such as logon and logoff, file and object access, use
of user rights, user and group management, security policy changes, restart,
shutdown, and system events in a security log on the server.

      For four of the five systems audited, we found one or more of the
following system auditing management vulnerabilities:

   •   Three systems had auditing parameters incorrectly or inappropriately
       set such that critical events and modification to sensitive system
       applications, files, and registry keys could go undetected.

   •   One system’s audit logs were not reviewed.

   •   One system was not set to secure event log files appropriately,
       increasing the risk of log file destruction or alteration.

   •   One system’s programming activity was not monitored, increasing the
       likelihood that unauthorized and undetected changes to the system’s
       environment may occur without appropriate review or oversight.

       The technical control vulnerabilities occurred because Department
policy was insufficient, not uniformly implemented, or not fully enforced.
Further, the broadly stated, minimum standards imposed by the Department
were not supplemented with sufficient or imposed component-level guidance
to fully secure the systems. In several areas of identified vulnerabilities,
broadly stated or minimally imposed standards allowed system security
managers too much latitude in establishing system settings.

CONCLUSION

     The GISRA audits of the SBU systems revealed vulnerabilities with
management (M), operational (O), and technical (T) controls. The auditors
assessed these vulnerabilities at a high to low risk to the protection of each
system from unauthorized use, loss, or modification as shown in the table
below.




                                     - 11 -
                          Audit Results of SBU Systems

                                       Control
        Areas of Vulnerability          Type     BOPNet EIS Firebird JCONII JDC
   Security Policies and Procedures      M         3      3    3      3     3
   Authorization of Software Changes     M                                  3
   Risk Assessment Reporting             M         3      3    3
   Contingency Planning                  O                3    3            3
   System Backup Procedures              O                     3      3
   System Configuration                  O                3    3      3
   Password Management                   T         3      3    3      3     3
   Logon Management                      T         3      3    3      3     3
   Account Integrity Management          T                3    3      3     3
   System Auditing Management            T                3    3      3     3

      Overall, the audits found that Department-level and component
security policies and procedures were either insufficient or unenforced. The
auditors concluded the Department did not provide timely and effective
oversight to ensure implementation of its security policies. For example, the
Department took nearly four years to revise its overall security policy, DOJ
Order 2640.2D “Information Technology Security,” after the OIG reported it
as ineffective in September 1997. The Order imposes minimal standards
that are broadly stated, allowing components and system security managers
too much latitude in establishing system settings.

       We recommend a proactive approach to improve security controls of
Department systems. Because of the repetitive nature of the security
deficiencies and concerns disclosed in this report, we conclude that a central
office with responsibility for system security is needed to identify trends and
enforce uniform standards. We believe that a central office would
concentrate resources (time, money, and expertise) to identify and correct
system security vulnerabilities most significant to the Department more
effectively. Moreover, baseline security safeguards and controls should not
vary according to the classification of system data, although data sensitivity
might warrant additional or increased measures of protection.

      In addition, senior management benefits from having a single point of
contact responsible for overseeing activities that standardize, implement, and
maintain strict, baseline Department-wide security controls over both types of
systems. This office would also serve as a liaison between the Information
Management and Security Staff, the Security and Emergency Planning Staff,
and the Assistant Attorney General for Administration.



                                        - 12 -
      In the GISRA summary report for classified systems, the OIG made
specific recommendations intended to improve Department-wide computer
security for both the classified and SBU systems. These recommendations
also apply to this report on SBU systems. We do not repeat these
recommendations here, but for reference purposes, include them in
Appendix III of this report.




                                 - 13 -
                                                                 APPENDIX I

                               BACKGROUND

      PricewaterhouseCoopers LLP conducted the assessment of the overall
computer security program and practices for the Department’s sensitive but
unclassified (SBU) systems by performing individual audits on five systems:
the Federal Bureau of Prisons Network (BOPNet); the Drug Enforcement
Administration’s Firebird and El Paso Intelligence Center Information System
(EIS); the Executive Office for U.S. Attorneys’ Justice Consolidated Office
Network II (JCONII); and the Justice Management Division’s Rockville and
Dallas Data Centers (JDCs).

The Federal Bureau of Prisons (BOP)

       The mission of the BOP is to protect society by confining offenders in
the controlled environments of prisons and community-based facilities that
are safe, humane, and appropriately secure, and providing work and other
self-improvement opportunities to assist offenders in becoming law-abiding
citizens. The BOP employs approximately 33,000 employees in its central
office, six regional offices, and approximately 29 community correction
management offices and 105 correctional facilities.

      BOPNet

      To fulfill its mission, the BOP uses automated information systems.
One of its more critical information systems is the BOP Network (BOPNet).
BOPNet is a SBU client/server-based network that interconnects the BOP
central offices and nationwide facilities’ workstations. BOPNet uses Novell
Netware and Windows NT Server operating systems and provides users
access to office automation software and BOP specific applications such as
SENTRY. The BOP uses SENTRY to track its more than 158,300 prisoners.

The Drug Enforcement Administration (DEA)

       The mission of the DEA is to enforce controlled substances laws and
regulations of the United States and investigate organizations and
individuals that grow, manufacture, or distribute controlled substances. The
DEA also recommends and supports non-enforcement programs that are
designed to reduce the availability of illicit controlled substances worldwide.




                                    - 14 -
           Firebird

       Firebird is a SBU system that provides office automation tools, e-mail
communications, on-line case file database access, and other information
resources to DEA administrative, investigative, analytical, and technical
support personnel. Because of the sensitive nature of the data processed on
Firebird, a compromise of the system could jeopardize the confidentiality of
investigations and agent safety. Firebird is a client/server-based system
using Windows NT and UNIX operating systems.

           EIS

       The El Paso Intelligence Center (EPIC) is located on Biggs Army
Airfield, an extension of Fort Bliss, in El Paso, Texas. Biggs Army Airfield is a
controlled access United States Army military installation. Organizationally,
EPIC is under the direct line authority of the DEA. EPIC management is
comprised of senior law enforcement representatives from several states and
15 federal agencies. Overall coordination of EPIC activities is the
responsibility of the EPIC Director. EPIC’s mission is to support United
States law enforcement and interdiction components through the timely
analysis and dissemination of intelligence on illicit drug and alien movements
and the criminal organizations responsible for these illegal activities.

       The EPIC Information System (EIS) processes data types, ranging in
classification from law enforcement sensitive to secret high4, that encompass
historical intelligence, tactical, administrative, and office automation data.
The EIS is a mission critical operation that select EPIC personnel access 24
hours a day, seven-days a week, with classified and unclassified sections
operating separately. This report summarizes the audit results of the
unclassified EIS section.

       The EIS was designed to collect, process, and disseminate intelligence
information concerning the movement of illicit drugs and currency, alien
smuggling, weapons trafficking, and other illegal related activities. The
primary repository of the unclassified intelligence data is the EPIC Internal
Database (EID). The EID is an Oracle database accessed through a
combination of custom developed and commercial-off-the-shelf software.
The EID stores suspect and tracking files on people, organizations, vehicles,
vessels, aircraft, and associated events for all unclassified intelligence
collected at EPIC.




4
    “Secret high” is a DEA sensitivity rating.

                                                 - 15 -
The Executive Office for U.S. Attorneys (EOUSA)

      The mission of the EOUSA is to provide the 94 United States Attorney
Offices located throughout the 50 states, the District of Columbia, Guam, the
Marianas Islands, Puerto Rico, and the U.S. Virgin Islands with general
executive assistance, operational and administrative support, and coordination
with Department of Justice components and other federal agencies.

           JCONII

      The Justice Consolidated Office Network II (JCONII) is a SBU system
designed to be the office automation system for the Department’s
management, litigating, and related legal components.

      Administrative support is facilitated through the use of commercial-off-
the-shelf applications residing on EOUSA’s JCONII. United States Attorneys
use JCONII to access legal applications and EOUSA proprietary software. The
JCONII system is a client/server-based network using both Windows NT and
UNIX platforms.

The Justice Management Division (JMD)

       The JMD Information Management and Security Staff’s (IMSS) mission
is to be the principal point of coordination in DOJ for compliance with federal
agency requirements under information technology (IT) laws and directives.
IMSS develops and implements policies, procedures, and guidance for IT
architecture and strategic planning, IT investment management, and the
security of the Department's SBU information systems.

           JDCs

      The Department of Justice maintains legacy5 systems housed on
mainframe platforms at data centers in Rockville, Maryland and Dallas,
Texas. The Rockville and Dallas data centers (JDCs) exist to provide secure
information technology facilities, computing platforms, and support services
for the bureaus, offices, boards, and divisions within the Department. Since
the JDCs are managed as one unit, they were audited as a combined entity.




5
    “Legacy” refers to traditional electronic data processing general support systems and applications running on
     mainframe computers with programming and operational support maintained in a centralized information
     technology environment.

                                                        - 16 -
                                                            APPENDIX II

               OBJECTIVE, SCOPE, AND METHODOLOGY

      The objective of the audits was to determine the Department’s
compliance with the requirements of the Government Information Security
Reform Act. In doing so, the OIG assessed whether adequate computer
security controls existed to protect Department systems from unauthorized
use, loss, or modification. To accomplish the objective, the OIG reviewed
management, operational, and technical controls for a subset of Department
systems. This report summarizes the audit results of the five SBU systems
reviewed.

      We interviewed component and system management personnel,
reviewed system documentation, and performed testing to determine
compliance with Department and component security policies and procedures.
The audits were performed in accordance with Government Auditing
Standards and took place from April through August 2001. The effectiveness
of security controls was assessed by using commercial-off-the-shelf and
proprietary software to conduct vulnerability assessments of the system.

      The audit approach was based on the General Accounting Office’s
Federal Information System Controls Audit Manual, the Chief Information
Officer Council Framework, OMB Circular A-130, and guidance established by
the National Institute of Standards and Technology.




                                  - 17 -
                                                                                             APPENDIX III

                                             RECOMMENDATIONS6

     We recommend that the Acting Assistant Attorney General for
Administration (AAG/A):

1) Establish a Department Information Technology (IT) Central Security
   Compliance Office for classified and sensitive but unclassified systems with
   the responsibility for:

      a) Monitoring security-related activities by testing controls at each
         component having classified systems (i.e. performing penetration tests
         and providing those results to the affected components).

      b) Reviewing the number and types of security deficiencies identified in
         each component’s periodic reports.

      c) Evaluating each component’s compliance with Department security
         policies especially in areas of reported weaknesses and establishing
         processes and procedures to enforce existing policy such as passwords,
         account lockout, and system auditing management.

      d) Assisting component Security Program Managers in assessing security
         risks, identifying hardware/software security deficiencies, and providing
         policy and procedural guidance as needed.

2) Charge the Department IT Central Security Compliance Office with
   ensuring that all components have current, documented, and tested
   contingency plans.

3) Charge the Department IT Central Security Compliance Office with
   developing a comprehensive corrective action plan to fully and timely
   address all Department-wide IT control weaknesses previously identified in
   security reviews and audits. Additionally, measures should be prescribed
   and oversight provided to ensure that component corrective action plans
   are prepared and that vulnerabilities are corrected. Eliminating repeat
   findings should be a priority.




6
    These recommendations are presented in our GISRA summary report for classified systems. Corrective action will
    be tracked as part of the follow-up process for that report. See Appendix IV.

                                                      - 18 -
4) Require each component Security Program Manager to:

  a) Have full knowledge of and familiarization with current Department
     information technology security policies and procedures, including DOJ
     Order 2640.2D and other departmental policies related to classified and
     unclassified systems.

  b) Report component compliance with Department security policy
     requirements.

  c) Ensure a security administrator is designated within each component for
     reviewing system security posture in accordance with Department
     security policy. In the case of multiple platforms or operating systems
     supporting component systems, an administrator should be designated
     to represent each unique platform.

  d) Ensure periodic computer security training is provided for each platform
     supported and require attendance by the designated security
     administrators.

  e) Develop and enforce security policies or apply industry best practices, to
     assess and counter evolving computer security vulnerabilities.

5) Require each component Security Program Manager to periodically report
   to the Department IT Central Security Compliance Office on the compliance
   of individual systems within their component relative to requirements
   outlined in Department security policies and procedures. Upon its review
   of the reports, the Department IT Central Security Compliance Office
   should bring areas of concern to the attention of the AAG/A.

6) Establish and implement guidance to ensure systems' security is monitored
   sufficiently, efficiently, and consistently. Specific areas that need to be
   immediately addressed include:

  a) automated monitoring of security policy compliance;

  b) automated logging, auditing, review and notification of security relevant
     events;

  c) requiring intrusion detection testing; and

  d) requiring application and operating system patches be kept current.

  (Note: According to JMD, they began addressing some of the above areas
  after the audits were completed.)


                                    - 19 -
      Although DOJ Order 2640.2D addresses many areas of identified system
security vulnerabilities, it still lacks sufficient guidance in several areas. The
policy should be specific to each operating system (Windows NT, Novell, and
UNIX) so that the requirements are not misunderstood or inappropriately
applied (i.e. some procedures may apply to Windows NT systems but not to
UNIX systems). Further, procedures need to be developed to provide more
specific guidance when necessary.

   Therefore, we recommend that the AAG/A:

7) Require periodic updates that supplement DOJ Order 2640.2D based on
   observed component needs, the evolving computer security environment,
   and industry best practices. We recommend that the AAG/A promptly
   review the adequacy of guidance for the following areas:

   a) password management (including task versus user accounts);

   b) accountability and audit trails;

   c) access controls;

   d) account integrity management, including monitoring of account
      disposition (dormant accounts);

   e) logon management;

   f) service accounts - changing the default password;

   g) assignment of user rights and advanced user rights;

   h) renaming guest and administrative accounts; and

   i) backup procedures.




                                         - 20 -
                                                               APPENDIX IV

     VIEWS OF RESPONSIBLE OFFICIALS AND STATUS OF REPORT

       In the GISRA summary report for classified systems, the OIG made
specific recommendations intended to improve Department-wide computer
security. Although those recommendations are applicable to both the
classified and SBU systems, they are included in this report for reference
purposes only and will be tracked as part of the follow-up process of the
GISRA summary report for classified systems.

      We issued this report in draft to obtain review and comment from
responsible Department officials. The Acting Assistant Attorney General and
Chief Information Officer responded that they had no comments. There are no
recommendations in this report. Therefore, this report is closed.




                                    - 21 -
